TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Better Cost-Benefit Analysis and
                      Security Measures Are Needed for the
                          Bring Your Own Device Pilot



                                      September 24, 2013

                              Reference Number: 2013-20-108




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2 = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


BETTER COST-BENEFIT ANALYSIS AND                      of BYOD to the cost of the IRS’s existing
SECURITY MEASURES ARE NEEDED                          mobility programs prior to starting the BYOD
FOR THE BRING YOUR OWN DEVICE                         pilot, it was not updated with complete
PILOT                                                 information on assumptions and costs. BYOD
                                                      could provide significant benefits; however,

Highlights                                            these benefits are just conjecture until the IRS
                                                      conducts a thorough cost-benefit analysis.

Final Report issued on September 24,                  Additionally, increased attention is still needed to
2013                                                  address security concerns related to the
                                                      460 users participating in the BYOD pilot. The
Highlights of Reference Number: 2013-20-108           IRS allows BYOD devices access to resources
to the Internal Revenue Service Chief                 on the IRS network in addition to providing
Technology Officer.                                   e-mail access, increasing the risk that privacy
                                                      and taxpayer data could be compromised. The
IMPACT ON TAXPAYERS                                   IRS also allows devices based on the Android™
                                                      operating system to participate in the BYOD
Bring Your Own Device (BYOD) is a popular             pilot, even though these devices are more
trend in mobile computing that allows users to        subject to malware than the Apple® devices
access network resources on their personal            tested in earlier phases. Audit trails and training
mobile devices, such as smartphones. While            also need to be improved.
BYOD has the potential to provide organizations
with cost savings, increased productivity, and        WHAT TIGTA RECOMMENDED
improved employee satisfaction, mobile devices
often need additional protection due to threats of    TIGTA recommended that the Chief Technology
theft and malware exposure. The IRS must              Officer ensure that a cost-benefit analysis for
ensure that implementing a BYOD program               BYOD is completed that complies with Federal
would be cost effective and that any increased        guidance, ensure that BYOD users are allowed
risks to the privacy and integrity of taxpayer data   access to e-mail functions only, takes some
can be mitigated.                                     additional steps before admitting Android
                                                      devices into the BYOD pilot, retains and reviews
WHY TIGTA DID THE AUDIT                               audit trails in compliance with existing policies,
                                                      and provides periodic training for BYOD
This audit was initiated as part of TIGTA’s Fiscal    participants on threats and recommended
Year 2013 Annual Audit Plan and addresses the         security practices specific to BYOD.
major management challenge of Security for
Taxpayer Data and Employees. The overall              In its response to the report, the IRS agreed with
objective of this review was to evaluate the          four of five recommendations and proposed
IRS’s costs, administration, and security for its     some corrective actions that it plans to take only
BYOD efforts.                                         if the BYOD pilot is expanded or funding is
                                                      identified. The IRS disagreed with the
WHAT TIGTA FOUND                                      recommendation to defer admitting Android
The IRS has taken several noteworthy actions to       devices into the pilot until a security risk
implement its BYOD pilot, including taking a          assessment is completed.
phased approach and considering security.             TIGTA believes that some of the corrective
Although it has spent more than $900,000 on           actions proposed by the IRS are inadequate
mobility, the IRS has not developed a complete        because they are contingent on BYOD
cost-benefit analysis to fully justify the            expansion or additional funding. The relevant
implementation of the BYOD concept.                   controls should be put in place for the existing
Federal-level guidance states that BYOD should        BYOD effort, which does not have a clear end
be cost effective and that a cost-benefit analysis    date and which is being used by hundreds of
is essential. While the IRS did prepare a simple      employees and devices within the production
cost analysis that compared the estimated cost        environment.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 24, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Better Cost-Benefit Analysis and Security
                             Measures Are Needed for the Bring Your Own Device Pilot
                             (Audit # 201320008)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) costs,
 administration, and security for its Bring Your Own Device efforts. This audit was initiated as
 part of the Treasury Inspector General for Tax Administration’s Fiscal Year 2013 Annual Audit
 Plan and addresses the major management challenge of Security for Taxpayer Data and
 Employees.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).
                                Better Cost-Benefit Analysis and Security Measures
                                 Are Needed for the Bring Your Own Device Pilot




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Actions Have Been Taken to Test and Implement
          Bring Your Own Device on a Limited Scale ................................................ Page 4
          The Costs and Benefits of Bring Your Own Device
          Should Be Fully Evaluated ........................................................................... Page 6
                    Recommendation 1:........................................................ Page 7

          Increased Attention to Security Is Needed.................................................... Page 8
                    Recommendations 2 and 3: .............................................. Page 12

                    Recommendations 4 and 5: .............................................. Page 13




Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Management’s Response to the Draft Report ...................... Page 19
       Better Cost-Benefit Analysis and Security Measures
        Are Needed for the Bring Your Own Device Pilot




                 Abbreviations

BYOD       Bring Your Own Device
IRS        Internal Revenue Service
MDM        Mobile Device Management
NIST       National Institute of Standards and Technology
                            Better Cost-Benefit Analysis and Security Measures
                             Are Needed for the Bring Your Own Device Pilot




                                             Background

Bring Your Own Device (BYOD) is a popular trend in mobile computing. BYOD programs
allow users to access an employer’s network resources on their personal mobile devices. For
example, employees can use their personally owned smartphone, tablet,1 and similar devices to
stay connected to and access data from their organization’s internal network. Employees tend to
like BYOD because it allows them to use their own preferred device, and, if they are required to
have a cell phone for work, it can allow them to carry only one device. Businesses and
Government agencies are receptive to it because it has the potential to provide cost savings,
increase productivity, and improve employee satisfaction. BYOD can provide cost savings if the
organization’s cell phone ownership, service, and/or support are reduced or discontinued.
Additionally, BYOD participants who did not previously have an assigned smartphone report
increased productivity because they can quickly address important e-mails while traveling or
between meetings. Employees who chose to participate in BYOD reported high levels of
satisfaction with the experience. However, achieving benefits is contingent on implementation
details and workforce acceptance.
BYOD devices are subject to distinctive threats on two specific fronts—as mobile devices and as
personally owned devices. Mobile devices often need additional protection because their nature
generally places them at higher exposure to threats than
other client devices, e.g., desktop and laptop devices used
                                                                  Mobile devices often need
only within the organization’s facilities and on the
                                                                additional protection because
organization’s networks.   2
                                                                 their nature generally places
                                                                them at higher exposure to
A Government Accountability Office report highlighted
                                                            threats than other client devices.
some threats related to mobile devices.3 Although the
report related to threats to mobile devices in general,
these concepts also apply in the BYOD situation in which employees use their own personal
phones or devices to access Government resources. This report, issued in September 2012,
provides the following information:
         Threats to the security of mobile devices and the information they store and
         process have been increasing significantly. For example, the number of variants

1
  A smartphone is a cell phone with built-in applications (commonly referred to as “apps”), access to the Internet,
and the ability to add more apps. A tablet is a computer contained in a single panel that is operated through a touch
screen.
2
  National Institute of Standards and Technology, Special Publication 800-124 Revision 1, Guidelines for Managing
the Security of Mobile Devices in the Enterprise (June 2013).
3
  Government Accountability Office, GAO-12-757, Information Security: Better Implementation of Controls for
Mobile Devices Should Be Encouraged (Sept. 18, 2012).
                                                                                                             Page 1
                           Better Cost-Benefit Analysis and Security Measures
                            Are Needed for the Bring Your Own Device Pilot



        of malicious software, known as “malware,” aimed at mobile devices has
        reportedly risen from about 14,000 to 40,000 or about 185 percent in less than a
        year […]. Cyber criminals may use a variety of attack methods, including
        intercepting data as they are transmitted to and from mobile devices and inserting
        malicious code into software applications to gain access to users’ sensitive
        information. These threats and attacks are facilitated by vulnerabilities in the
        design and configuration of mobile devices, as well as the ways consumers use
        them. Common vulnerabilities include a failure to enable password protection
        and operating systems that are not kept up to date with the latest security patches.
The more recent Juniper Networks Third Annual Mobile Threats Report estimated that mobile
malware grew 614 percent between March 2012 and March 2013, with 92 percent of it directed
toward Android™ devices. The report cautioned that due to a complex and distributed
environment for mobile devices, rates represent only directional trends.
Another notable mobile device threat is the increase in thefts, especially of smartphones. Recent
reports indicate that as many as 40 percent of robberies involve stolen cell phones, particularly
smartphones. An October 2012 Associated Press report stated that this may have reached a level
of almost 50 percent of robberies in San Francisco, California. In response to the growing theft
problem, the Federal Communications Commission partnered with private companies to launch
an initiative that consists of a series of practical solutions
designed to combat cell phone theft. However, challenges
                                                                     Financial and personal
to enforcement remain.                                               information, including
Some reports suggest that mobile device users are even             tax-related information,
                                                                  are increasingly targeted
more susceptible to falling victim to phishing attacks4 than          by cybercriminals.
conventional computer users. Cybercriminals increasingly
seek to obtain sensitive financial and personal information,
including tax-related information, through phishing and other types of cyberattacks. That mobile
device users may be more susceptible to such attacks raises security concerns, particularly when
the devices are used to access the enterprise network.
In addition to the risks related to mobile devices, BYOD introduces an element of risk related to
personal ownership and use. When the Government owns the device, the Government can
control and update the device as needed, similar to laptops, and can restrict certain uses of the
device, such as downloading suspicious software or visiting inappropriate websites. However,
this is not the case for personally owned devices, which rely on individual initiative to implement
operating system updates or to take security precautions. Because such restrictions do not apply
to personally owned devices, the chances of downloading malware-infected software may be


4
 Phishing attacks trick individuals into disclosing sensitive personal information through deceptive computer-based
means.
                                                                                                           Page 2
                        Better Cost-Benefit Analysis and Security Measures
                         Are Needed for the Bring Your Own Device Pilot



increased through such activities as visiting inappropriate sites, participating in gambling,
downloading apps from third-party sites, or even using social media sites.
Employers can use a mobile device management (MDM) solution to help mitigate the risks
involved with mobile devices. MDM allows an organization to manage and control any mobile
device on its network. For example, MDM may be used to ensure that only authorized users
access the internal network, enforce password usage, ensure communication encryption, or limit
access to network applications. MDM and other technologies can mitigate risks associated with
mobile devices participating in BYOD. MDM is a growing area, with an increasing number of
vendors offering these types of products. Education on security dangers and how to increase
security is also helpful in mitigating risks.
Federal-level guidance related to BYOD is developing along with this new technology. To
provide some Federal-level guidance based on successful implementations of BYOD, in
August 2012, the White House issued A Toolkit to Support Federal Agencies Implementing
Bring Your Own Device (BYOD) Programs. In addition, the National Institute of Standards and
Technology (NIST) has issued guidance related to mobile devices and is working on more
guidance related to BYOD; however, as of June 3, 2013, this guidance has not yet been issued.
The NIST warns that, like any new technology, smartphones present new capabilities but also a
number of new security challenges. Smartphones and tablet devices have powerful capabilities
and can be used for sending and receiving e-mail, browsing the Web, online banking and
commerce, social networking, storing and modifying documents, remotely accessing data,
recording audio and video, and navigating (as navigation aids). These devices are now mobile
computers.
This review was performed with information obtained from the Information Technology User
and Network Services, Strategy and Planning, and Cybersecurity organizations located in
Lanham, Maryland; the Office of Privacy, Governmental Liaison, and Disclosure located in
Washington, D.C.; and site visits to Information Technology offices in Oakland and
San Francisco, California, and the Wage and Investment Division office in Walnut Creek,
California, during the period November 2012 through July 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                                Page 3
                           Better Cost-Benefit Analysis and Security Measures
                            Are Needed for the Bring Your Own Device Pilot




                                     Results of Review

The Internal Revenue Service (IRS) is currently piloting a limited BYOD effort.5 It uses an
MDM solution to control access to the internal network and to limit risks associated with mobile
devices. The MDM solution encrypts organizational data and enforces certain security settings
on the personal device, but it does not control or otherwise interfere with using the personal side
of the device. BYOD participants have access to e-mail, calendaring, and some web-based
internal IRS applications. However, technical limitations prevent users from interfacing with
many IRS internal systems.
The IRS has taken several noteworthy actions with respect to implementing its BYOD pilot,
including taking a phased approach and considering security. However, the IRS has not
developed a complete cost-benefit analysis to fully justify the implementation of BYOD within
the IRS. Additionally, increased attention is still needed to address security concerns.

Actions Have Been Taken to Test and Implement Bring Your Own
Device on a Limited Scale
The driving force behind BYOD at the IRS has been investigating mobile technology that
provides business value to employees and increasing employee productivity and satisfaction. To
these ends, the IRS has proceeded toward BYOD in phases, which is in line with guidance in the
White House BYOD Toolkit document that advises an incremental approach toward
implementation.
Starting in September 2010, the IRS began a proof-of-concept effort to validate the technical
feasibility of the MDM solution, which would allow the IRS to apply security settings on BYOD
devices to mitigate risks. The proof-of-concept effort involved up to 39 Government-purchased
smartphones and tablets and only involved testers from the Information Technology
organization. In a second phase started in April 2011, the IRS purchased an additional
100 iPhone® devices, expanding the project to include non–Information Technology organization
users. This phase was to help determine the business value of this solution on its own merits and
in relation to the existing BlackBerry® mobile solution. Finally, in June 2012, the IRS started its
third phase, a true BYOD program, when it purchased licenses for up to 1,000 devices to connect
to the IRS network via the MDM solution. Initially, the program was limited to only devices


5
  The IRS currently refers to its BYOD pilot as a “technology demonstrator,” which is meant to distinguish BYOD
as a provisional initiative or prototype, thus differentiating it from formal pilots or large-scale information
technology initiatives for which the IRS uses a well-established investment decision and enterprise lifecycle
methodology. The word “pilot” is used in the report in a general sense for ease of understanding.
                                                                                                         Page 4
                            Better Cost-Benefit Analysis and Security Measures
                             Are Needed for the Bring Your Own Device Pilot



with iOS® operating systems (Apple® iPhone and iPad® devices) due to the enhanced security
features available in conjunction with the MDM solution. The IRS rolled out the BYOD pilot to
eligible employees6 starting September 2012. In May 2013, the IRS opened the pilot to Android
devices. Figure 1 illustrates the IRS’s phased approach.
                  Figure 1: The IRS’s Phased Approach to the BYOD Pilot




    Source: Information provided by the IRS BYOD Project Team.

The IRS has made consideration of security an important feature of its mobility efforts with the
implementation of the MDM solution for its BYOD program. The MDM solution used by the
IRS was among those identified by the General Services Administration in May 2013 as a
potential source of supply for MDM because the company understands Government
requirements and provides a compliant encryption solution. Specifically, the MDM solution
provides for a secure encrypted container for Government data on the device and secure
communications with the IRS network. It enforces some basic controls over the security settings
on the personal devices, such as requiring a passcode and enforcing a full device wipe after a
certain number of unsuccessful passcode attempts. The MDM solution also provides the ability
to identify devices, prevent jailbroken or rooted7 devices from connecting, and send a signal to
wipe information on the device. The IRS told us that it informally tested some key features of
the MDM solution, such as its ability to wipe devices.

6
  Eligible employees were identified by the business and functional divisions and included only non–bargaining unit
employees.
7
  Jailbreaking a device entails bypassing certain security features built into Apple iOS devices. Jailbreaking allows
root access to the operating system and may allow a user to use apps besides those in the Apple App Store. Rooting
is similar but applies to Android devices.
                                                                                                             Page 5
                       Better Cost-Benefit Analysis and Security Measures
                        Are Needed for the Bring Your Own Device Pilot



The Costs and Benefits of Bring Your Own Device Should Be Fully
Evaluated
The IRS has not completed a full cost-benefit analysis for the BYOD pilot. While the IRS did
prepare a simple cost analysis that compared the estimated cost of BYOD to the cost of the IRS’s
existing BlackBerry and cell phone programs prior to starting the BYOD pilot, the analysis was
not updated with complete information on assumptions and costs. Consequently, as the pilot
expanded, IRS managers relied on the original assumptions and cost projections in the analysis,
which did not provide a sufficient basis for informed decision making.
The White House BYOD Toolkit document states that
BYOD should be cost effective and that a                     The White House BYOD Toolkit
cost-benefit analysis is essential. Detailed guidance         document states that BYOD
on preparing a cost-benefit analysis is found in Office    should  be cost effective and that a
                                                            cost-benefit analysis is essential.
of Management and Budget Circular A-94, Guidelines
and Discount Rates for Benefit-Cost Analysis of
Federal Programs. This circular describes elements of a cost-benefit analysis, including a policy
rationale for the proposed program, a clear explanation of explicit assumptions and the rationale
behind them as well as strengths and weaknesses, an evaluation of multiple alternative means of
achieving program objectives, and a subsequent verification that anticipated benefits and costs
were realized.
We found the following examples of inadequate assumptions or cost comparisons in the IRS’s
BYOD cost-benefit analysis.
      The analysis assumed that all users with IRS-provided phones would willingly choose to
       participate in BYOD when given a choice between BYOD and a Government-provided
       device. However, industry and Government reports indicate that only some employees
       will choose to participate. At another Federal organization, only 23 percent of the
       employees who had Government-provided devices chose to participate in BYOD when
       given the opportunity to do so. The IRS recently surveyed some of its employees
       currently provided a Government phone and, out of 58 respondents, only four indicated
       that they were willing to give up the Government phone for BYOD if keeping both a
       Government phone and a BYOD was not an option. Additionally, in the BYOD pilot
       phase, the IRS obtained 1,000 licenses to distribute throughout the business units but, as
       of May 2013, only 460 employees had taken advantage of the BYOD opportunity. The
       IRS used 519 of the 1,000 device licenses due to some employees having multiple
       devices.
      The analysis did not include continuing to provide and service about
       190 Government-owned devices that are currently needed for a program that allows
       priority cell phone access for executives in case of emergency. The BYOD team noted in

                                                                                           Page 6
                        Better Cost-Benefit Analysis and Security Measures
                         Are Needed for the Bring Your Own Device Pilot



       another document that this program would not be terminated regardless of the BYOD
       implementation, so the analysis should have included it.
      The analysis overestimated the number of existing phone users and the total costs
       associated with the existing Government-provided BlackBerry and cell phone programs.
       The January 2013 IRS analysis was based on 20,000 total phone users, with 5,000 of
       those being BlackBerry users and the remaining 15,000 being cell phone users.
       However, when we requested information on the number of actual phone users in
       February 2013, the IRS told us that there were a total of about 14,800 users—about
       4,300 BlackBerry users and about 10,500 cell phone users.
BYOD could provide significant benefits and even potential cost savings; however, these
benefits are only conjecture until the IRS conducts a thorough, realistic cost-benefit analysis.
While the White House BYOD Toolkit document states that a cost-benefit analysis of BYOD is
essential, the IRS’s own guidance does not require a detailed cost-benefit-type analysis for small
technology demonstration projects such as the BYOD pilot; thus, such efforts have been limited.
The IRS estimates that it has spent more than $900,000 on its phased mobility efforts, including
the BYOD pilot. While some issues existed with its analysis, the IRS estimated that a fully
deployed program could cost about $3.9 million to start up and about an additional $2.2 million a
year in ongoing costs for up to 20,000 users. This compares favorably to the IRS’s estimate of
about $7.6 million in annual costs for 20,000 users in the existing program. Even though the
costs for the existing program appear to be overestimated, the IRS can realize some savings if
participation is sufficient and security issues can be resolved. However, if users who are now
provided phones as part of their work cannot be convinced to provide their own phones for work
purposes, BYOD could end up as a costly “add-on” to the existing program.

Recommendation
Recommendation 1: The Chief Technology Officer should ensure that a cost-benefit
analysis, in compliance with Office of Management and Budget Circular A-94, is completed for
the existing BYOD pilot if it is continued as well as for any potential expanded BYOD program.
The cost-benefit analysis should include realistic assumptions, especially related to participation
rate. The team preparing the analysis should include employees with a financial background
who are experienced in cost-benefit analysis.
       Management’s Response: IRS management agreed with this recommendation and
       stated that when and if there is executive approval to continue or expand BYOD beyond a
       technical demonstration, the IRS will institute a cost-benefit analysis in compliance with
       Office of Management and Budget Circular A-94. The IRS pointed out that the existing
       BYOD is a technology demonstration and not a pilot.



                                                                                             Page 7
                               Better Cost-Benefit Analysis and Security Measures
                                Are Needed for the Bring Your Own Device Pilot



           Office of Audit Comment: We believe that the IRS should implement this
           recommendation for the existing BYOD program as well as any expanded version,
           regardless of whether it is called a technology demonstration or a pilot. Mobility efforts
           leading up to and including BYOD have cost the IRS over $900,000 so far, and the IRS
           had no estimated end date for the BYOD effort.

Increased Attention to Security Is Needed
Although the IRS did consider security and made it an important feature in implementing its
mobility efforts, more should be done to ensure the security of the IRS network. Because the
BYOD pilot takes place in the production environment, standard security controls should apply.
The IRS allows BYOD devices access to resources on the IRS network in addition to providing
e-mail access, increasing the risk that the privacy and integrity of taxpayer data could be
compromised. The IRS also allows devices based on the Android operating system to participate
in the BYOD pilot even though these devices are more subject to malware than the Apple
devices tested in earlier phases. Lastly, audit trails and training also need to be improved.

Limiting access to only e-mail functions could help mitigate risks
Because the IRS is unable to fully implement Federal-level and IRS security guidance with
respect to BYOD devices, we believe BYOD devices should only be allowed to access e-mail
functions and should not be allowed to access other IRS network resources. This restriction
would help limit the attack vector, should a security incident occur. We believe limiting BYOD
to e-mail functions could have little impact on users, while providing greater security. A small
judgmental8 sample of BYOD users indicated that six out of seven users only used BYOD to
read e-mails and not to access any other IRS applications. These results indicate that e-mail is
the most valued BYOD function and that other applications add value to only some users or add
only marginal benefit. Users could still use their Government-owned laptops to access the full
range of network resources when necessary.
The IRS stated that users were given access to the IRS network for the BYOD pilot in order to
evaluate the functionality and usability of mobile devices for business purposes. In terms of
assessing the risks related to this increased functionality, the IRS stated that the MDM solution
provides secure network browsing as part of its base product and that the Cybersecurity
organization did not assert any unacceptable risk, provided the data were encrypted in motion
and at rest, which the MDM solution achieves. The IRS further stated that one premise of the
BYOD pilot is to take some risks and to give users access to what is needed in order to do their
work using the MDM interface. The IRS stated that users need complete access to effectively
test the MDM solution.


8
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 8
                           Better Cost-Benefit Analysis and Security Measures
                            Are Needed for the Bring Your Own Device Pilot



To accomplish multiple security- and privacy-related purposes, the IRS is required to implement
a range of information technology security policies. Federal guidance9 requires enabling use of
Personal Identity Verification credentials for controlling access to sensitive Government
information. The IRS has not implemented this control with the BYOD pilot. The Federal
Government is still working on guidance resolving issues related to applying this standard to
mobile devices. Federal mandates also require a complex password in conjunction with a
Personal Identity Verification credential to protect against unauthorized access to Government
applications and services. ***********************2*******************************
*********************************2********************************************
*****************2************************. The IRS currently is unable to enforce this
requirement ************2***************** on BYOD devices.
According to information from the U.S. Computer Emergency Readiness Team,10 mobile phone
security in general has not kept pace with traditional computer security. As smartphones become
more popular and powerful, they have become an attractive target for attackers. Standard
computer security measures such as firewalls, antivirus, and encryption are uncommon on
mobile phones, and mobile phone operating systems are not updated as frequently as possible.
Mobile devices are vulnerable to a range of attacks, including theft, software exploits, and
phishing. Further, cybercriminals are motivated to find new types of exploits because of the
valuable information mobile devices contain. Security researchers at the Georgia Institute of
Technology have built a malicious charger that can inject persistent malware into
current-generation iOS devices without jailbreaking the device. The security researchers stated
that more motivated, well-funded adversaries could accomplish much more. The U.S. Computer
Emergency Readiness Team cautioned that, given enough time, sophistication, and access to the
device, any attacker could obtain information on the device.
The IRS commented that even if an attacker were able to gain access to the IRS network using a
BYOD device, system controls would limit access to only those applications the employee was
authorized to access. As such, if the employee did not have access to taxpayer data, the attacker
would not have access either. However, if the employee did have access to taxpayer
information, and a sophisticated attacker got access to the device, the attacker could also have
that access.
The White House BYOD Toolkit document and the IRS’s security policy state that devices must
be configured and managed with information assurance controls commensurate with the
sensitivity of the underlying data. Taxpayer and personal data are extremely sensitive
information and deserve a high level of protection that is more important than providing
convenience or modest cost savings. We believe that until the IRS completes a cost-benefit

9
  Homeland Security Presidential Directive 12: Policy for a Common Identification Standard for Federal
Employees and Contractors directs agencywide use of Personal Identity Verification credentials for controlling
access to sensitive Government information.
10
   Cyber Threats to Mobile Phones, revised February 6, 2013.
                                                                                                           Page 9
                       Better Cost-Benefit Analysis and Security Measures
                        Are Needed for the Bring Your Own Device Pilot



analysis that justifies a business need for a BYOD program, the IRS should limit BYOD access
to e-mail functions only in order to mitigate risks.

Including Android operating system devices in BYOD increases the security risks
Android devices present more serious security risks than Apple devices in the BYOD
environment. Multiple reports have documented increased malware targeted toward mobile
devices, particularly toward Android devices. Malware presents serious risks that have not been
adequately disclosed to management in formal documentation. Android devices are a bigger
target for malware due to an open source operating system, a more lenient approval process for
inclusion in the regulated app store, multiple third-party unregulated app stores, and lack of
timely updates to correct operating system weaknesses.
In 2012, malware directed against Android devices increased significantly globally, and attacks
are expected to increase in the United States as well. Malware may include keylogger or “spy”
software. Keylogging software records keystrokes on the device and can automatically transmit
data to a remote computer. Spy-type malware monitors device activity and can deliver Internet
website addresses and upload data from a removable storage card. With the increase in attacks
against all mobile devices, and Android devices in particular, malware presents a significant
threat to device security
In August 2012, an IRS executive authorized the BYOD pilot, including Android devices, to
conduct operations in the production environment, and the IRS began admitting Android devices
into the program in May 2013. However, neither the authorization nor the other security
documents referenced in the authorization, including a security technology review and a control
impact assessment, discussed the security weaknesses specific to Android devices. The security
technology review in July 2012 stated that the Android devices would be included in the BYOD
pilot and that the IRS has the personnel and expertise to securely implement BYOD. However,
the control impact assessment only discussed Apple devices and did not reference Android
devices at all. No references were made in these documents to Android device weaknesses
previously identified by the Cybersecurity organization, including malware targeting of Android
devices. Based on the information discussed in the authorization, we are not convinced that the
IRS executive had enough information to make an informed decision about the risks involved in
bringing Android devices into the BYOD pilot.
It is unclear if an enterprisewide BYOD program would be either accepted by IRS users or cost
effective without including Android devices. Nevertheless, the security issues should be
acknowledged and mitigating controls identified.

Access audit trails are not retained or reviewed in compliance with IRS policy
According to the NIST, audit trails play an important role in computer security. Audit trails
maintain a record of system processes and of user activity. One security purpose is to help
system administrators ensure that the system or resources have not been harmed by hackers,
                                                                                          Page 10
                          Better Cost-Benefit Analysis and Security Measures
                           Are Needed for the Bring Your Own Device Pilot



insiders, or technical problems. Audit trails can provide a means to help accomplish several
security-related objectives, including individual accountability, reconstruction of events,
intrusion detection, and problem analysis.
*********************************************2********************************
**********.11 **************2*********************************
************************************2*****************************************
********************2***************.
Currently,*******************************2*************************************
********************************2*********************************************
**************************2****************. However, the Cybersecurity organization
has developed interim audit trail policy for the BYOD pilot. This interim guidance directs that
***********************************2******************************************
***********************************2******************************************
*****2********. Additionally, because the BYOD operates in the production environment, we
believe it should comply with existing IRS guidance related to audit trails. BYOD accesses
involve hundreds of employees and are taking place in the production environment. The IRS
should follow its existing guidance with respect to retaining and reviewing audit trails. If audit
trails are not available or are not reviewed, unauthorized accesses may occur and not be detected.

Training would help inform users about mobile device threats
The Government Business Council and other sources recommend providing users with
awareness training specific to the mobile environment. Office of Management and Budget
Appendix III to Circular A-130, Security of Federal Automated Information Resources, requires
that agencies ensure that users are appropriately trained in how to fulfill their security
responsibilities before allowing them access to the system. Appendix III to Circular A-130 also
states that periodic refresher training should be required for continued access to the system.
Further, the IRS’s Cybersecurity organization has indicated that user training is important to
enhance security related to mobile computing, and the Office of Privacy, Governmental Liaison,
and Disclosure has indicated that communications with users about privacy and security issues
should occur on a regular basis.
To bring its BYOD users up to speed on mobile device security, the IRS requires users to sign an
online user agreement form that sets forth BYOD policies and addresses security issues. The
IRS also provides a website where users can ask questions and see the responses from questions
previously asked by other users. However, BYOD participants are not receiving periodic
refresher training specific to BYOD threats and recommended security practices. While the IRS
requires its employees to take annual computer security awareness training, the training is not

11
  Internal Revenue Manual 10.8.3, Information Technology Security, Audit Logging Security Standards
(Sept. 16, 2011).
                                                                                                      Page 11
                             Better Cost-Benefit Analysis and Security Measures
                              Are Needed for the Bring Your Own Device Pilot



specifically targeted toward mobile device security. However, it could be improved to provide
the ongoing security training that BYOD participants should receive.
The Government Business Council states that lapses in judgment or forgetfulness are
unavoidable. A Telework Exchange survey12 found that one in three Federal employees who use
their personal smartphone for work do not even have password protection on their phones.
Smartphone users may be even more susceptible to phishing than regular computer users.
Currently, the IRS has no assurance that users are knowledgeable about elevated loss and theft
rates, how to identify potentially dangerous apps, and other mobile-related device security issues.

Recommendations
The Chief Technology Officer should:
Recommendation 2: Ensure that BYOD users are allowed access only to e-mail functions in
most cases and ensure that any users provided additional access to IRS network resources
demonstrate a compelling business need for that increased access, especially considering that
laptops already have full functionality on the IRS network.
           Management’s Response: IRS management agreed with this recommendation.
           Access to additional IRS resources will use the same MDM secure container solution,
           ensuring complete isolation of IRS resources from the rest of the personal device, and be
           provided as business needs for the access are demonstrated.
           Office of Audit Comment: Although IRS management agreed with this
           recommendation, they do not plan to implement corrective action until November 2014.
           We believe that the IRS should implement this recommendation immediately for the
           existing BYOD participants and limit their BYOD access to e-mail functions only, unless
           a business need for further access has been demonstrated, in order to mitigate the risk of
           IRS sensitive data being compromised.
Recommendation 3: Defer admitting Android devices into a BYOD pilot or program until a
security risk assessment has been completed that thoroughly addresses the malware and other
risks associated with Android devices and the assessment has been reviewed and the risks
accepted by executive management.
           Management’s Response: IRS management disagreed with this recommendation.
           The IRS stated that BYOD is a technology demonstration and the IRS is evaluating
           various devices through the controlled secured environment of its MDM. IRS executive
           management reviewed the Cybersecurity Mobile Computing Security Technology
           Review and issued an authorization to conduct a BYOD technology demonstration which
           includes Android devices.

12
     The 2013 Digital Dilemma Report: Mobility, Security, Productivity—Can We Have It All? (Jan. 15, 2013).
                                                                                                         Page 12
                       Better Cost-Benefit Analysis and Security Measures
                        Are Needed for the Bring Your Own Device Pilot



       Office of Audit Comment: We acknowledged in the report that both a security
       technology review and an authorization for BYOD were completed. However, there was
       no indication that the risks related to Android devices compared to Apple devices were
       disclosed to the authorizing official. We continue to believe that additional risk
       information on Android should be provided to IRS executives because neither the
       Cybersecurity Mobile Computing Security Technology Review nor other documents
       referenced in the authorization described the malware and other risks related to Android
       devices.
Recommendation 4: Ensure that the existing IRS policy related to audit trails is followed,
**********************************2*******************************************
**********************************2**************************************.
       Management’s Response: IRS management agreed with this recommendation. The
       MDM has built-in facilities to accumulate an audit log of access attempts, and the IRS
       believes these built-in capabilities are sufficient while BYOD is a technology
       demonstration. The IRS will investigate a method with the MDM server to
       ***************2************. In the event that the technology demonstration is
       adapted into a production system, all IRS policies regarding audit trails will be applied
       accordingly per the Enterprise Life Cycle.
       Office of Audit Comment: The IRS stated that, if it expands the existing BYOD
       effort, it will investigate how to retain audit trails. We continue to believe that 1) the IRS
       should retain the audit trails in compliance with existing IRS policy for the current
       BYOD effort and not wait until the effort is further expanded and 2) the IRS should also
       review the audit trails daily. These controls should be implemented for the existing
       BYOD technology demonstration/pilot since there was no specified end date to the effort,
       and it already operates in the production environment with access to operational IRS
       systems and live data. At present, hundreds of employees and devices have access to IRS
       resources through their BYOD devices.
Recommendation 5: Provide periodic refresher training for BYOD participants that clearly
explains the risks associated with personal mobile devices, how these can potentially expose the
IRS network to unauthorized accesses and malware, the consequences of such breaches, and how
to prevent or reduce the possibility of causing such a security breach.
       Management’s Response: The IRS agreed with this recommendation contingent on
       funding. If the decision is made to continue the existing technology demonstration or
       expand the program, the IRS will develop security training materials for BYOD
       participants that clearly explain the additional security threats associated with personal
       mobile devices and IRS data as well as best practices to mitigate these threats and reduce
       risks to agency information and resources.


                                                                                            Page 13
                Better Cost-Benefit Analysis and Security Measures
                 Are Needed for the Bring Your Own Device Pilot



Office of Audit Comment: Although IRS concerns related to funding are
understandable, we continue to believe that all BYOD participants should be provided
this information in some form on a regular basis to help mitigate security risks associated
with BYOD.




                                                                                   Page 14
                       Better Cost-Benefit Analysis and Security Measures
                        Are Needed for the Bring Your Own Device Pilot



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the IRS’s costs, administration, and security for its BYOD
efforts. To accomplish this objective, we:
I.     Determined if the IRS evaluated the costs and benefits of BYOD prior to and based on
       the results of the pilot and if actual costs and benefits are being adequately captured
       during the pilot.
       A. Obtained cost-benefit guidance for Federal projects, such as Office of Management
          and Budget guidance.
       B. Obtained cost-benefit analyses that the IRS has conducted related to BYOD and any
          necessary supporting documents.
       C. Interviewed IRS officials regarding methodology for the cost-benefit analysis and
          how ongoing costs and benefits are being captured.
       D. Assessed if key costs and benefits were adequately accounted for in the IRS’s
          estimates and in the ongoing pilot.
II.    Determined if the IRS BYOD program is being effectively administered.
       A. Interviewed IRS officials regarding how the program is administered.
       B. Reviewed helpdesk requests related to BYOD and the MDM solution to identify
          issues that have been reported and how they were resolved.
       C. Reviewed the inventory of devices and participants for potential issues, such as low
          participation rates.
       D. Determined if the IRS infrastructure provides the necessary functionality for BYOD
          hardware and software and risks of expanding the program.
       E. Determined if BYOD end user-related policies and procedures are effective and in
          accordance with Federal guidance and best practices.
III.   Determined if IRS BYOD-related policies are sufficient to protect IRS data and if the
       policies have been effectively implemented in accordance with Federal policy.
       A. Obtained Governmental guidance and industry best practices related to BYOD
          (including mobile devices in general) and determined if IRS policies are in
          compliance with the NIST and other relevant guidance (including password,
          cryptographic, and Homeland Security Presidential Directive 12 guidance).
                                                                                          Page 15
                            Better Cost-Benefit Analysis and Security Measures
                             Are Needed for the Bring Your Own Device Pilot



         B. Determined if access controls and identification and authentication controls are
            effectively implemented. We selected a small judgmental sample1 of seven IRS
            employees who were participating in BYOD and were co-located with the audit team
            and observed MDM operation on the personal devices. In May 2013, there was a
            total population of 460 BYOD users.
         C. Determined if data protection controls are effectively implemented including controls
            related to encryption, passwords, connections, and data flow between BYOD
            components.
         D. Determined if configuration management controls are effectively implemented related
            to system requirements, the MDM solution, device settings, and malware protection.
         E. Determined if incident response controls are implemented effectively including the
            ability to detect jailbreaking,2 unauthorized access attempts, or malware; the ability to
            wipe devices; and the ability to collect and review audit logs.3
         F. Determined if employees should have access to the IRS intranet through BYOD,
            considering risks and other factors, and if this can be limited if necessary.
         G. Determined if the program should be expanded to include Android devices.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Federal guidance and industry best
practices related to cost, administration, and security on pilot technology projects and BYOD.
We evaluated these controls by reviewing White House guidance on BYOD; Office of
Management and Budget Circular A-94 Guidelines and Discount Rates for Benefit-Cost Analysis
of Federal Programs; Internal Revenue Manual 10.8.3, Information Technology Security, Audit
Logging Security Standards; and other IRS, NIST, and industry guidance related to mobile
devices. We also interviewed IRS Information Technology organization management in the
Cybersecurity, User and Network Services, and Risk Management organizations as well as other
IRS offices with duties related to BYOD. We interviewed and observed seven IRS employees as
they operated their BYOD devices.

1
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
2
  Jailbreaking a device entails bypassing certain security features built into Apple iOS devices. Jailbreaking allows
root access to the operating system and may allow a user to use apps besides those in the Apple App Store. Rooting
is similar but applies to Android devices.
3
  We used criteria for systems categorized as Moderate using criteria in NIST Federal Information Processing
Standards 199, Standards for Security Categorization of Federal Information and Information Systems (Feb. 2004).
                                                                                                            Page 16
                      Better Cost-Benefit Analysis and Security Measures
                       Are Needed for the Bring Your Own Device Pilot



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent T. Sagara, Director
Jody Kitazono, Audit Manager
Mary Jankowski, Lead Auditor
Louis Lee, Senior Auditor
Midori Ohno, Senior Auditor
Larry W. Reimer, Information Technology Specialist




                                                                                     Page 17
                     Better Cost-Benefit Analysis and Security Measures
                      Are Needed for the Bring Your Own Device Pilot



                                                                            Appendix III

                        Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Director, Privacy, Governmental Liaison, and Disclosure OS:P
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Director, Architecture and Implementation OS:CTO:C:AI
Director, Financial Management Services OS:CTO:SP:FM
Director, Investment Planning and Management OS:CTO:SP:IPM
Director, Business Planning and Risk Management OS:CTO:SP:RM
Director, Service Planning and Involvement OS:CTO:UNS:SPI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Technology Officer OS:CTO




                                                                                  Page 18
       Better Cost-Benefit Analysis and Security Measures
        Are Needed for the Bring Your Own Device Pilot



                                                   Appendix IV

Management’s Response to the Draft Report




                                                            Page 19
Better Cost-Benefit Analysis and Security Measures
 Are Needed for the Bring Your Own Device Pilot




                                                     Page 20
                           Better Cost-Benefit Analysis and Security Measures
                            Are Needed for the Bring Your Own Device Pilot



                                                                                                       Attachment

Draft Audit Report- Better Cost-Benefit Analysis and Security Measures Are Needed for the Bring Your Own
Device Pilot - Audit# 201320008 (e-trak #2013-46364)

CORRECTIVE ACTION MONITORING PLAN: We will enter accepted corrective actions into the Joint Audit
Management Enterprise System (JAMES) and monitor them on a monthly basis until completion.

RECOMMENDATION #3: The Chief Technology Officer should defer admitting Android® devices into a
BYOD pilot or program until a security risk assessment has been completed that thoroughly addresses the malware
and other risks associated with Android® devices, and the assessment has been reviewed and the risks accepted by
executive management.

CORRECTIVE ACTION #3: The IRS disagrees with this recommendation concerning deferral of Android®
devices. This is a technology demonstration and the IRS is evaluating various devices through the controlled
secured environment of Good for Enterprise Mobile Device Management (MDM). IRS Executive Management
reviewed the Cybersecurity Mobile Computing Security Technology Review and issued an Authorization to
Conduct BYOD technology demonstration which includes Android devices.

IMPLEMENTATION DATE: N/A

RESPONSIBLE OFFICIAL: The Associate Chief Information Officer, User and Network Services.

CORRECTIVE ACTION MONITORING PLAN: N/A

RECOMMENDATION #4: The Chief Technology Officer should ensure that the existing IRS policy related to
audit trails is followed, *******************************2****************************************
**************************************************2*************************************.

CORRECTIVE ACTION #4: The IRS agrees with this recommendation. The Good Mobile Device Management
server has built-in facilities to accumulate an audit log of access attempts, and the IRS believes these built in
capabilities are sufficient while BYOD is a technology demonstration. The IRS will investigate a method within the
Good Mobile Device Management Server****************2******************. In the event that the
technology demonstration is adapted into a production system, then all IRS policy regarding audit trails will be
applied accordingly per the Enterprise Life Cycle (ELC).

IMPLEMENTATION DATE: February 25, 2015

RESPONSIBLE OFFICIAL: The Associate Chief Information Officer, User and Network Services




                                                        2




                                                                                                         Page 21
Better Cost-Benefit Analysis and Security Measures
 Are Needed for the Bring Your Own Device Pilot




                                                     Page 22
